<html>
<title> - NEXTGEN: LEVERAGING PUBLIC, PRIVATE, AND ACADEMIC RESOURCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



,
                      NEXTGEN: LEVERAGING PUBLIC,

                    PRIVATE, AND ACADEMIC RESOURCES

=======================================================================

                                (112-60)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                  U.S. GOVERNMENT PRINTING OFFICE
71-101                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Babbitt, Hon. J. Randolph, Administrator, Federal Aviation 
  Administration.................................................     5
Blakey, Hon. Marion C., President and Chief Executive Officer, 
  Aerospace Industries Association...............................     5
Bunce, Peter J., President and Chief Executive Officer, General 
  Aviation Manufacturers Association.............................     5
Caslavka, Alan, President, GE Aviation Systems-Avionics..........     5
Dillingham, Gerald L., Ph.D., Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................     5
Johnson, John P., Ph.D., President, Embry-Riddle Aeronautical 
  University.....................................................     5

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Babbitt, Hon. J. Randolph........................................    34
Blakey, Hon. Marion C............................................    50
Bunce, Peter J...................................................    56
Caslavka, Alan...................................................    62
Dillingham, Gerald L., Ph.D......................................    67
Johnson, John P., Ph.D...........................................    80
[GRAPHIC] [TIFF OMITTED] 71101.001

[GRAPHIC] [TIFF OMITTED] 71101.002

[GRAPHIC] [TIFF OMITTED] 71101.003

[GRAPHIC] [TIFF OMITTED] 71101.004

[GRAPHIC] [TIFF OMITTED] 71101.005

[GRAPHIC] [TIFF OMITTED] 71101.006

[GRAPHIC] [TIFF OMITTED] 71101.007



                      NEXTGEN: LEVERAGING PUBLIC,



                    PRIVATE, AND ACADEMIC RESOURCES

                              ----------                              


                        MONDAY, NOVEMBER 7, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
101 of the Willie Miller Instructional Center Auditorium, 
Embry-Riddle Aeronautical University, 600 S. Clyde Morris 
Boulevard, Daytona Beach, Florida, Hon. John L. Mica (Chairman 
of the committee) presiding.
    Mr. Mica. I would like to call this hearing of the House 
Transportation and Infrastructure Committee to order. Today we 
have a field hearing here in Daytona Beach, Florida. I thank 
Members for attending and our witnesses for being with us, and 
we will get to some introductions in just a minute.
    But we are pleased that this probably one of the first 
congressional hearings I believe we have held at Embry-Riddle. 
We are delighted to have them host us. We are going to hear 
from Dr. Johnson, one of our witnesses, in a few minutes. But 
thank you for your hospitality and allowing us to come here, 
particularly when Congress' reputation lately--to host us and 
have us as your guests.
    But this is an important hearing, and the title of it deals 
with, of course, our next generation air traffic control 
systems. And the title is ``Leveraging Public, Private, and 
Academic Resources.''
    Today's hearing is being held in conjunction with a ribbon 
cutting, which will be really open expansion of a next 
generation air traffic control Test Bed facility, and the 
public is invited to that, I believe, at 2:00 today. It is just 
next to the airport terminal facing the airport terminal that 
is on the left. And that will begin promptly at 2:00 today.
    I want to welcome again our Members of Congress. We are 
joined today by the chairman of the House Aviation 
Subcommittee. Mr. Petri, the gentleman from Wisconsin, chairs 
the subcommittee. We have another chair of one of our 
subcommittees, the distinguished gentleman from Pennsylvania, 
Mr. Bill Shuster, who chairs the--I always say the railway--the 
Rail Subcommittee, but it is Rails, Pipelines, and Hazardous 
Materials--did I get it wrong--including responsibility in both 
the committee and in Congress.
    We are pleased also to be joined by another Transportation 
Committee member, the gentleman from Texas. He is part of that 
powerful group of 89 freshmen. We have 19 Republican freshmen 
on this committee, and he is one of our new members, Blake 
Farenthold from the State of Texas. And we are pleased to have 
him join us today.
    And we are also pleased to have minority counsel. Thank you 
so much for joining us and being with us today. We have the 
staff director also as part of our committee staff with us. So, 
that is the makeup of our panel. We have got Mary acting as 
counsel for me this morning--welcome, Mark--of the majority 
staff.
    On the panel of witnesses, first of all, I have to welcome 
probably one of the most important people in aviation in the 
United States and a great leader, who helped us move in some 
difficult times under some difficult circumstances in aviation 
policy and programs, Randy Babbitt, who is the Administrator. 
We are pleased to have Dr. Johnson, who is the president here 
of the Embry-Riddle University. General Johnson does a great 
job of leading the premiere aeronautical institute and 
university not only in the United States, but the world. And we 
are pleased to have, again, you host us here today.
    We have got Gerald Dillingham. He's from the General 
Accountability Office, GAO, as we affectionately refer to them. 
They have testified many times before our committee, and they 
do an outstanding job on oversight, some investigations, and 
give an important view of Federal programs. We are pleased to 
have you with us.
    Then, we are going to talk about a top hitting panel of 
witnesses. We have probably one of the finest FAA 
administrators following the footsteps of Marion Blakey, who 
served. I had the honor to be chair of the Aviation 
Subcommittee. She is actually one of the people who helped us 
launch some of the NextGen effort, and she now is the president 
and CEO for Aerospace Industries. I welcome the former 
Secretary and current president and CEO, Marion Blakey.
    And then, another distinguished gentleman that represents 
one of the most important aspects of aviation, and actually 
people who use and be involved in all of the next generation, 
use software and systems to develop them, we have the president 
and CEO, Pete Bunce. And Pete Bunce, he is with the General 
Aviation Manufacturers. He is on the end.
    And then I am going to blow it, Alan Caslavka?
    Mr. Caslavka. Caslavka.
    Mr. Mica. Good. A fellow Czechoslovakian surname. Most 
people think Mica is Italian, but it is also Czechoslovakian. 
But he is vice president of avionics at GE Aviation, and we are 
honored to have him here.
    The order of this will be as follows. I have an opening 
statement, and then I will refer to Members for opening 
statements, and then I will go to our witnesses. Normally we 
have 5 minutes; we would prefer it. I have read most of your 
testimony already. If you condense some of it [inaudible]. But 
with that, I will recognize myself, and then I will turn it 
over to Members, and then we will [inaudible]. Again, welcome.
    But I think today is a very important day because the 
people who are on this panel and Members of Congress I am 
sitting beside, and that is pretty decisive because I do not 
intend for there to be another short-term extension of our FAA 
bill. I happened to be chair in 2002. I headed that office from 
close to a year 2000 and then as chairman of aviation, to pass 
a 4-year bill that expired in 2007 passed in 2002. So, for more 
than 4\1/2\ years now, we have not had a long-term FAA 
reauthorization. As some of you know, we are very frustrated by 
this. I agreed when the [inaudible], and since February when I 
became the chair, there were three more, and I am the fourth 
one, and I said that we have got to be the last. We did have 
sort of a showdown, FAA and Congress, on the matter, and 
through that I believe we will now have a long-term bill.
    We will have it on the President's desk before Christmas 
and certainly before January 31st. So, that is why this hearing 
is particularly important because one of the most important 
components for the bill is the conditions we have for next 
generation aircraft. We did some things in the last 
legislation, which is 4\1/2\ years old now, and it is overdue 
for updating the policy.
    The bill that we propose does some things, but I think that 
we need the proper [inaudible] some of it, witnesses just 
before we started. We want to hear anything about these new 
provisions to alter, to improve to [inaudible] some dysfunction 
that works best [inaudible]. This is not my work or Members' 
work, but [inaudible] hopefully can move us forward [inaudible] 
plan.
    Specifically, the legislation currently [inaudible] the 
NextGen technology to include accountability and management for 
modernization, that sets immediate performance methods, which 
we are hopeful hold FAA accountable for [inaudible] and be 
responsible for, again, putting all this together.
    It sets a deadline for the deployment of NextGen 
[inaudible] administrator to utilize private sector and FCC to 
accelerate the deployment of NextGen technology, and also 
flight plans. Furthermore, to streamline we have a 
certification process for NextGen technology, and for flight 
paths. It sets a rulemaking deadline for offering more 
beneficial ADS-B, and it also directs FAA to leverage private 
sector capital to accelerate the NextGen [inaudible].
    It provides a process for the timing for the acceleration 
of FAA facilities so NextGens are enabled. That is also 
important. And, finally, it provides [inaudible] safe 
integration of our unmanned aviation systems into the National 
Airspace System.
    So, we came here to hear from you today to begin to assess 
where we are, where we must go, and how we must get there at a 
very pivotal time when the Congress [inaudible] legislation 
[inaudible].
    Also, at the conclusion of today's hearing at 2:00, as you 
know, there will be an opening of the Test Bed. [Inaudible] 
that we have and we will know about the progress of that 
particular enterprise today and the other [inaudible] their 
mission.
    But the key to all this I think was summed up in a summary 
that I read [inaudible]. It says that the FAA has said that 
there are significant quantifiable benefits associated with 
proper implementation of NextGen. FAA's estimates show that by 
2018, next generation air traffic control management 
improvements will reduce total delays by about 35 percent. And 
also, they will have a dramatic impact on fuel prices and 
[inaudible] compared to what would happen if we have no 
[inaudible]. And the delay in the production will provide the 
benefit of $23 billion accumulated from 2010 to 2018 to 
aircraft operators [inaudible] project management areas.
    So, getting back to airspace management improvements plan 
from 2010 forward, we can save about $1.4 billion of aviation 
fuel and carbon dioxide emissions, about 14 million tons. 
[Inaudible] aircraft. The first would be an installation of 
next generation avionics. It also drives job growth [inaudible] 
economic prosperity and high-paying employment, and hopefully 
this activity will alleviate the need to, again, [inaudible] 
some of the finest people we have in the industry who actually 
[inaudible] in the system, so the combination of that FAA 
[inaudible] and management, to administer the program.
    And, finally, we could not have a better university or more 
well-qualified personnel here [inaudible] aviation and avionics 
than Embry-Riddle University.
    So, we are pleased you could join us. I hope you can take 
some today to get some information on today's hearing, and 
[inaudible] done here and where we do go from here.
    We have been joined by the Honorable Sandy Adams, and she 
and I have the privilege to represent [inaudible] community and 
representing [inaudible].
    So, with that, let me yield first to Mr. Petri, chair of 
the House Aviation Subcommittee.
    Mr. Petri. Mr. Chairman, thank you very much for inviting 
us [inaudible] the involvement of non-profit private 
organizations and of industry [inaudible] technology 
[inaudible] aviation [inaudible] safety that it will provide 
for the expansion of the capacity of the system, for the 
efficiency that it will provide to the airline industry. The 
estimates are it will save some 15 to 25 percent of fuel as it 
goes forward, so it's green technology. And it is something 
that will maintain the leadership of our country for the 
foreseeable future in aviation if we proceed with it in a 
determined and orderly and well-organized way.
    So, I thank your panelists and you for having this 
important hearing and Embry-Riddle for making a contribution to 
this national effort.
    Mr. Mica. Thank you, Mr. Petri. We will yield to the 
chairman, Bill Shuster from Pennsylvania.
    Mr. Shuster. Thank you, Mr. Chairman, and thank you for 
bringing us here to Florida for this very important hearing.
    I just want to highlight the importance of public/private 
partnerships, and how that is what we have today, and we need 
to continue to look across the scope of the Government to find 
out ways to bring the private sector in and leverage the 
Federal taxpayer dollars with the private sector to be able to 
bring projects like this that are going to be very, very 
beneficial to the traveling public, to Congress of the United 
States. And so, it is great to be here, and thank you.
    Mr. Mica. Thank you, Mr. Shuster. The gentleman from Texas, 
Mr. Farenthold.
    Mr. Farenthold. I would like to thank you all for your 
hospitality. It is good to be back in Florida also as a regular 
visitor on vacation. I am excited to be here and excited in the 
anticipation in watching the way that Government should operate 
working with the private sector and academia to come up with 
the best solutions that in the long run will save both the 
Government and industry time and money.
    I look forward to hearing from our panelists.
    Mr. Mica. Thank you. And I would like to welcome to the 
panel--she is not a member of our committee, but I ask 
unanimous consent that we recognize her. Without objection, so 
ordered. And welcome, Representative Sandy Adams.
    Ms. Adams. Thank you, Mr. Chairman. I am happy to be here, 
and I am looking forward to the discussion of NextGen. We have 
been talking about it for a long time now, and it is a good 
public/private partnership. I am just happy to be here, and I 
appreciate you allowing me to be here today.
    Mr. Mica. And while we do not have a Democrat member of the 
committee with us today, and I have given permission for some 
of them to attend some other functions around the country, we 
do have counsel from the Democratic staff, Alex Burkett. And 
did you want to make any comment?
    Mr. Burkett. Mr. Chairman, I respectfully would not, other 
than just to thank you on behalf of the Democratic members for 
holding this hearing.
    Mr. Mica. Thank you. And we have had wide bipartisan 
support for the legislation. Thank you for your participation. 
The important thing now is we get the job done, and I look 
forward to working with everyone in that regard.
    So, I think we have covered our membership and those 
attending. The order of business will be now to hear from our 
panel of witnesses. And, again, we are delighted, and I thank 
you, too. Usually when I have the Administrator, he will sit on 
a panel, and we bring in red velvet carpeting, and we have a 
very special place for him. And I thank him for allowing us to 
have him join the entire panel, but we will recognize him 
first, thank him for his service, and actually just delighted 
to have his leadership in, again, working on this important 
issue, being here to report to us, and also see the Test Bed.
    So, welcome, Mr. Administrator, and you are recognized.

TESTIMONIES OF HON. J. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL 
AVIATION ADMINISTRATION; GERALD L. DILLINGHAM, PH.D., DIRECTOR, 
   PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY 
    OFFICE; JOHN P. JOHNSON, PH.D., PRESIDENT, EMBRY-RIDDLE 
AERONAUTICAL UNIVERSITY; ALAN CASLAVKA, PRESIDENT, GE AVIATION 
 SYSTEMS-AVIONICS; HON. MARION C. BLAKEY, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, AEROSPACE INDUSTRIES ASSOCIATION; AND PETER 
   J. BUNCE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, GENERAL 
               AVIATION MANUFACTURERS ASSOCIATION

    Mr. Babbitt. Thank you, sir. Thank you, Chairman Mica, 
Congressman Petri, members of the committee. Thank you all for 
the opportunity to come here today to highlight the 
capabilities of the Florida Test Bed.
    Mr. Mica. Can you all hear him? Move that up a little bit. 
We do not want to miss a word, Randy.
    Mr. Babbitt. That concludes my remarks.
    [Laughter.]
    Mr. Babbitt. Thank you very much for the opportunity to 
come and speak with you about the Florida Test Bed and the 
things that we are undertaking here. It is an exciting 
expansion of the Federal Aviation Administration's NextGen 
testing operation.
    I am pleased to be able to join you all here in Florida. I 
grew up here, so it is nice to be back. And as I was explaining 
to Dr. Johnson, I actually learned to fly at Embry-Riddle, so 
it is a little humbling for me to come back here.
    The FAA's three NextGen Test Beds here in Florida, in 
Atlantic City, and in North Texas provide an opportunity for 
real world testing for us, demonstration environments that 
facilitate both research and development, as well as real world 
demonstrations and evaluations. They offer us a variety of 
resources that offer us ways to develop NextGen technologies, 
along with the concepts and various implementation techniques 
that we need.
    And today, we are marking the completion of renovations and 
enhancements here at the Florida Test Bed, the enhancements to 
equip this facility to handle not just today's testing 
demonstrations, but they are also preparing us to take in new 
ideas in the innovations of tomorrow to give us the ability to 
integrate a full range of NextGen systems, and evaluate 
operational impacts.
    And the dozens of systems that it houses today are really 
just a beginning truly. The Test Bed will constantly be 
modified, as they all are, as we complete the demonstrations 
and engineer additional platforms. We also look forward to the 
new technologies that the Test Bed will yield. This is a great 
facility, and it offers us the capacity for innovation and 
prototype testing, as well as demonstration.
    And I think key to this is having access to the resources 
that Embry-Riddle provides to us that enhances the 
effectiveness in what we can do. And this combination will make 
it the birthplace of industry-driven concepts that will advance 
NextGen and the benefits that come from NextGen.
    The FAA has awarded a $22 million contract towards NextGen 
research and development through an agreement with Embry-Riddle 
University. This agreement enables the FAA to leverage the 
experience and expertise that resides here at Embry-Riddle and 
many of the industry's partners also. We get to capitalize on 
all of that. It has already resulted in a number of solutions 
of the product and industry collaboration, and we expect to see 
even more developments ahead.
    Although we are pleased to cut the ribbon here today and 
witness demonstrations of the cutting edge systems that exist, 
this event is more than just a celebration of what we have 
already accomplished. It is truly a call urging our industry 
partners to take advantage of the promise of the public and 
private partnership going forward that this facility 
represents.
    We truly look forward to the evolution of our air 
transportation system. The chairman has cited a number of the 
benefits that we expect to receive as we move forward. NextGen 
is going to make travel more convenient, more dependable. It is 
going to improve safety and efficiency all at the same time. 
And a continuous roll out of improvements and upgrades, all of 
these will come as we pioneer things here in the Test Bed.
    This building has the ability to guide and track air 
traffic more precisely in order to save fuel and reduce costs. 
We will be able to test and implement those as we move forward. 
So, NextGen, as we know, is already a better way of doing 
business. It is a better way for the FAA, for the airlines, the 
airports, and the traveling public. It is better for safety, 
better for our environment, better for efficiency and 
flexibility, and overall it is better for the economy.
    Congress has appropriated about $2.8 billion for NextGen in 
the last 5 years. The President has requested another billion 
dollars in the American Jobs Act for NextGen. We will continue 
to invest in the coming years, and those investments will bring 
us substantial returns. The chairman highlighted for us a 
number of those, and we expect to recoup our entire initial 
investment by 2018. We decided a 35 percent reduction compared 
to what would happen if we did not do anything. We find those 
to be very accurate projections.
    All in all, we propose to save about 1.4 billion gallons of 
fuel; that will cut carbon dioxide emissions by 14 million 
tons. That is a lot of carbon emission reduction.
    The NextGen benefits, however, do depend on getting 
stakeholders to invest in avionics, ground equipment, staffing, 
training, and procedures we will all have to use in order to 
take advantage of the infrastructure that the FAA establishes.
    Their willingness to make these investments depends in 
return on the business case, their assessment of how valuable 
these benefits will be, and their confidence that the FAA can 
deliver in the timeframes and the manner required in order to 
realize those benefits.
    Facilities like this one right here, this Florida NextGen 
Test Bed, helped make that case. Demonstrations and operational 
trials of specific NextGen systems and procedures actually let 
stakeholders see the very real benefits that NextGen can bring. 
They mitigate program risk. They show us whether we are on the 
right track in our technical approaches. They provide insight 
as to how equipment should be designed for the best operation, 
the best maintenance, and the human interface and automation 
comparisons. In this way, the Florida Test Bed will spur 
innovation. It will spur collaboration with the industry to 
speed the realization of the many benefits that NextGen has to 
offer.
    NextGen is happening now, and I would note that if we delay 
the investment, our long-term costs to this Nation, to our 
passengers, and the entire environment overall will far exceed 
the costs of moving forward today.
    Mr. Chairman, this concludes my prepared remarks, and I 
would be pleased to answer any questions at the appropriate 
time.
    Mr. Mica. I think what we will do, if you do not mind, is 
we will go through everyone.
    Mr. Babbitt. Sure.
    Mr. Mica. And thank you for your patience. I am going to 
call on our next Government witness, which is Dr. Gerald 
Dillingham.
    We have an important Federal partner in examining some of 
these programs and undertakings, and that is GAO. So, I thought 
it would be appropriate, first, if we heard from the 
Administrator, and that we hear from Mr. Dillingham now, his 
candid open comments.
    Welcome, sir. You are recognized.
    Mr. Dillingham. Thank you, Chairman Mica, Chairman Petri, 
Chairman Shuster, members of the committee. My statement today 
discusses the role of the NextGen Test Bed in the development 
of NextGen capabilities, together with some observations on how 
it can generally support a more robust R&D and technology 
transfer function throughout FAA.
    As we have reported over the years to this committee, ATC 
modernization efforts often fail to meet cost, schedule, and 
performance targets for a number of reasons. In some cases, 
systems do not perform as intended because system operators and 
users were not involved early and continuously in technology 
planning and development. In other cases, commitment faltered 
also when projects lacked a home or a champion in FAA.
    In addition, concerns about FAA's credibility, which arose 
when promised benefits did not materialize, or the agency 
stopped a program after the airlines had equipped, discouraged 
airlines from making further commitments needed to implement 
the technologies.
    These issues plagued FAA's past ATC modernization effort, 
and despite substantial improvements, have surfaced again with 
the ERAM system. ERAM is now projected to be almost 4 years 
behind schedule and hundreds of millions of dollars over budget 
in part because FAA did not ensure adequate collaboration and 
cooperation among stakeholders.
    The three test facilities that currently make up the 
NextGen Test Bed have the potential to address these past 
issues and make a significant contribution to accelerating the 
implementation of NextGen. The Test Bed is designed to bring 
together stakeholders early in the technology development 
process so participants can understand the benefits of 
operational improvements, identify potential risk, and foster 
partnerships between Government, industry, and academia.
    Furthermore, the Test Bed provides access to the systems 
now in the NAS, which allows for testing and evaluating the 
integration and interoperability of new technologies. Such 
testing and evaluation are critical, since many of today's NAS 
systems will be in service for many years to come, and the new 
NextGen technologies and capabilities will have to be 
integrated with them.
    The Test Bed can also serve as a forum for private 
companies to learn from each other and eventually enter into 
technology acquisition agreements or technology transfers with 
the FAA, with significantly reduced risk. However, our recent 
work on technology transfer has identified some lingering 
stakeholder concerns. For example, although work at the test 
site has allowed private sector participants to see how they 
might benefit from the technologies being tested, some of the 
participants told us it was not always clear what happened to 
the technologies that were successfully tested at the sites. 
They said in some cases it was not apparent whether the 
technologies being tested had a clear path to implementation, 
or a clear path to FAA's NAS infrastructure roadmap.
    FAA's linking together of testing facilities, expanding the 
Florida facility, building a research and technology park 
adjacent to the new to the New Jersey facility to complement 
the capabilities of Embry-Riddle, are very positive steps that 
should also help to address some of these issues.
    Our recent technology transfer work has also identified a 
gap in collaboration between FAA and the partner agencies that 
can inhibit technology transfer. For example, after several 
years of NextGen planning, FAA, DOD, and DHS have yet to fully 
identify what R&D technology or expertise at these agencies 
could support NextGen activities. According to NextGen 
stakeholders we spoke with, FAA could more effectively engage 
partner agencies' long-term planning by aligning implementation 
activities to partner agency mission priorities, and by 
obtaining buy-in for actions required to transfer on to NAS.
    We have recommended that FAA and its partner agencies work 
together to clarify NextGen interagency priorities and enhanced 
technology transfers. Those recommendations are still pending. 
To its credit, FAA has implemented several of our 
recommendations for realigning its management structure and 
improving its oversight of NextGen acquisition, which in turn 
should help the agency to better manage the portfolios of 
capabilities across program offices. These changes have also 
placed a greater focus on accountability for NextGen 
implementation, and can help address issues like finding a home 
for FAA technologies. However, it is too early to tell whether 
these latest reorganizations will produce the desired results.
    Mr. Chairman, in summary, we believe that FAA recognizes 
the importance and necessity of partnerships, and has taken 
several important steps to improve its ability to manage and 
enhance these technology transfer activities. We will continue 
to monitor developments and outcomes in this area and provide 
information and analysis to this committee.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, and, again, we will withhold 
questions.
    Now, what I will do is turn to two of the partners in this 
Test Bed activity. First, we will hear from academia, and 
representing Embry-Riddle, their president, Dr. Johnson. 
Welcome. You are recognized.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
opportunity to host the hearing today and to serve as a host 
for the Florida NextGen Test Bed facility.
    Embry-Riddle Aeronautical University was founded in 1926, 
prior to the development of the aerospace industry. We worked 
closely with those industries to provide the needed personnel 
and manpower to make them successful. We have always had a 
corporate focus as we looked at partnering with aerospace 
companies. That has not changed as we develop next generation 
technology and make our air transportation system safer and 
more efficient.
    The university is really quite unique. We offer 40 degree 
programs from the bachelors', masters', and through the Ph.D. 
level. The thing that I think makes the university great is 
that we have an outstanding college of aviation and an 
aerospace engineering program that is the largest and among the 
best schools of its type in the world. We also have an 
engineering and space physics degree program that is one of the 
largest ABET accredited programs in the country. That synergy 
between aviation and engineering provides for wonderful 
opportunities for research. Problems are identified, tested, 
and real-world solutions are found.
    We have been partnering with the aerospace industry, Mr. 
Chairman, for all of our existence. I agree with Dr. 
Dillingham's comments that we look very closely to not only 
Congress, but to the FAA to provide coordination of efforts 
across our aerospace industry partners, universities, and 
Government initiatives. Coordination is going to be very 
important to the future of the welfare of our aviation industry 
and our national air transportation system.
    The University is uniquely prepared to do research. We have 
not only great colleges of aviation and engineering, but we 
also have a fleet of 100 small airplanes. We can redesign and 
test the avionics package on those airplanes. We can put 
biofuel in one engine of a twin and put regular avgas in the 
other and test them in a cost-effective manner. We can compare 
the efficacy of a biofuel versus a traditional petroleum-based 
fuel.
    Mr. Chairman, we have been involved in developing NextGen 
technology in a very real sense for many years. In 2003, we 
equipped every one of our airplanes with satellite-based GPS-
type technology, ADS-B. We have been flying those planes going 
on 8 years, and have had an opportunity to determine that the 
GPS satellite-based type of technology substantially enhances 
and increases not only accuracy in terms of identifying where 
planes are, but improves communication with the tower, allows 
us to see other airplanes in terms of altitude, closing speed, 
and to make efforts to separate aircraft to prevent accidents 
from happening. So, I think the development of satellite 
technology is something that is very important to safety.
    Now, that is just one aspect of NextGen technology. We have 
also been working on improving ground safety by preventing 
runway incursions. We have been working with high-speed digital 
cameras along the runways and lighting systems that tell the 
approaching pilot that is on final whether or not there is an 
airplane on the runway. Active lighting systems will prevent 
incursions and accidents. All of those things are very 
important.
    We are so pleased to be a partner with the FAA. It is doing 
a great job. We look forward to establishing additional 
relationships with our industry leaders, and feel we can help 
better serve our industry and the flying public. We feel that 
the Florida NextGen Test Bed is making great progress and 
offers great opportunities to strengthen our air transportation 
system.
    In a very real sense, the Test Bed serves as a microcosm of 
our national air transportation system. We can test things 
efficiently and quickly, and make recommendations to the FAA 
and to Congress to improve the safety and efficiency of the 
system.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Dr. Johnson.
    And we will turn now to Alan Caslavka. And Alan is the vice 
president, Avionics, for GE Aviation. And I think they have 
about total of 17 private sector partners in is this, and you 
are one of them.
    Welcome, and you are recognized.
    Mr. Caslavka. Thank you, Mr. Chairman. members of the 
committee, Alan Caslavka. As Chairman Mica indicated, I am vice 
president of aviation systems within the avionics group at 
General Electric. I thank you for the opportunity to testify 
today.
    General Electric is making large investments to improve the 
global infrastructure not only in aviation, but in power 
generation, health delivery, and rail facilities as well. In 
the aviation world, most people think of GE as an engine 
provider, which we are, but we have broadened our horizons 
beyond the engine domain to focus on efficiency of broader 
aviation systems around the world.
    We are fully engaged in trying to solve the toughest 
problems of aerospace and air traffic management. We see a 
tremendous opportunity to fundamentally transform our airspace 
and air traffic management infrastructure, to safely 
accommodate traffic growth more efficiently, more reliably, and 
in a way that positively impacts our environment and our 
communities.
    In the U.S., we are focused on advancing NextGen. GE is 
currently involved with a number of next generation programs 
with the FAA, some of which are here at Embry-Riddle. We value 
tremendously the public/private partnership, and are hopeful 
that by collaborating with Government and academia, we will be 
able to accelerate the delivery of the benefit to aviation 
owners and operators.
    GE Aviation Systems is the avionics member of the 
integrated airport initiative, the consortium that we are 
involved with here today at Embry-Riddle. The Test Bed program 
will host a number of demonstration programs that will allow us 
to develop and refine operational concepts, as well as validate 
the benefits and the technologies that it can provide. These 
programs help quantify what the benefits will be to key 
stakeholders, and often include life flights that lay the 
groundwork for transitioning into ongoing operations.
    The programs that GE has been involved with at the Test 
Bed, though limited, have shown the value of collaborative R&D 
and the impact of an integrated demonstration center to 
showcase the combined NextGen capabilities of the FAA, Embry-
Riddle, and the industry team. One FAA funded project, referred 
to as task G, is designed to leverage existing flight 
management systems, of which we have a domain expertise, and 
the technology to validate trajectory-based operations, which 
we believe is key going forward in this particular domain.
    Implementation will help aircraft fly more optimized 
routes, conduct idle descents, and also to have more efficient 
shorter paths to the terminal.
    We look forward to funding under another project, task E, 
where we will demonstrate the flight of a Predator UAS unmanned 
air system, with a modified 737 flight management system that 
will digitally link to air traffic control. These proof of 
concept flights will show the ability of the FMS equipped UAS 
to fly very precise paths, even in a situation where you have 
lots of flying contingencies, while giving air traffic 
controllers a high degree of confidence in the UAS intended 
path.
    Demonstrations under task E and another FAA program, 
network enabled operation, otherwise known as NEO, later this 
month will help pave the way for expanded UAS access to 
national airspace.
    The increasing involvement of the FAA in Test Bed 
activities is valuable, not only to fund demonstrations, but to 
enable moving the technologies closer to the demonstration from 
a demonstration into an operational use in national airspace. 
We recommend that Test Bed projects be expanded beyond just 
demonstrations to include a forum for funded collaborative R&D 
programs for near and midterm next generation capabilities.
    I would like to take a moment to talk about the value of 
collaboration between the FAA and private sector in the 
deployment of near-term NextGen economic and environmental 
benefits. GE has developed a great deal of experience deploying 
performance-based navigation--specifically, RNP paths is what 
it is referred to. In collaboration with the Government, 
regulatory agencies, and airlines, we have designed and 
deployed more than 340 RNP procedures in over seven countries. 
Based on that experience, we find clear and compelling evidence 
that PBN, if implemented properly, can immediately reduce 
aircraft track miles, fuel consumption, and CO2 emissions. The 
kinds of near-term benefits PBN brings unalign with the recent 
recommendation of the NextGen Advisory Committee to develop and 
deploy RNP instrument procedures that would allow currently 
equipped users to routinely fly them and achieve associated 
benefits. We estimate that over 50 percent of the aircraft 
flying in airspace today have that capability.
    The quickest and most efficient way to deploy these 
procedures, we believe, is to engage qualified commercial PBN 
service providers, like ourselves here at GE, and work closely 
with the FAA to design and deploy them. The FAA policy for this 
collaboration already exists within the current regulatory 
framework, and work could begin immediately. Collaborative 
research and development and public/private partnerships are 
critical to deliver tangible benefits of NextGen to the 
operators who utilize our airspace. NextGen demonstrations need 
to be about getting on with the benefits of the technologies 
and the operations into the hands of airspace users faster and 
more smoothly.
    GE Aviation is proud to be a part of the integrated airport 
initiative and the Florida Test Bed. We look forward to working 
with the FAA, Embry-Riddle, and our industry partners to 
demonstrate real NextGen benefits for the operational users of 
NAS in the weeks and months to come.
    Thank you.
    Mr. Mica. Thank you for your testimony. I will turn now to 
the president and chief executive officer of the Aerospace 
Industries Association, Marion Blakey.
    Ms. Blakey. Thank you, Chairman Mica. Chairman Petri, 
Chairman Shuster, and Congressman Farenthold, and Alex, thank 
you very much for having this today because this is an 
important event, an important hearing as you unveil the Florida 
NextGen Test Bed.
    As you know, I was here about 16 months ago, so this is 
really remarkable to see the progress that has been made since 
then. And I have to commend Dr. Johnson and his team for what 
he has accomplished. You've got a lot to be proud of in a very 
short period of time.
    I am here representing the Aerospace Industries 
Association, AIA, which is the premiere trade association of 
manufacturers and producers of aerospace and defense industry 
products. Over 340 members manufacture the aircraft that fly in 
our airspace, the systems that guide them, and the satellites 
and unmanned aircraft that are a part of the wave of the 
future. Our members are vitally interested in seeing NextGen 
succeed, and many of them are partners here with the NextGen 
Test Bed.
    Mr. Chairman, I do not think there is any question about 
the cost benefit of NextGen. Tom Captain, who you have recently 
had at a hearing, has done a study for Deloitte Touche. I think 
he captured it perfectly in one of the hearings where he said, 
``NextGen has an open and shut business case.''
    What we hear from industry, though, is a call for stronger 
coordination. I think you have heard some of that this morning 
from the private sector, including aircraft manufacturers, 
airlines, and the manufacturers of equipment. As we speak, new 
ADSB ground stations are being commissioned, more aircraft are 
equipping and flying. But we are not realizing the full value 
of these benefits. The development and approval of procedures 
is simply lagging the technology. Mr. Caslavka just referred to 
this, and I have to say, Mr. Administrator, we are very 
encouraged that the FAA has certainly bought into public/
private partnerships. And the example here in Florida could be 
applied vigorously all over the country, we believe, to advance 
NextGen.
    To its credit, as I say, FAA is responding. The agency 
recently reorganized the NextGen management team, raised its 
organizational priority, and we are very delighted that the 
NextGen executive now reports directly to deputy administrator 
Huerta.
    We know that NextGen is a priority of the agency, but we 
also fear that the coming budget reductions are going to make 
it hard for NextGen to stay on track.
    FAA's long-range budget was already programmed at flat 
levels to the year 2016. Then the Budget Control Act, passed in 
July, required funding cuts below these levels. And if that 
were not enough, we now see that further reductions, part of 
the sequester, may occur when the Joint Select Committee on 
Deficit Reduction issues its recommendations later this month. 
This is a perilous situation.
    And as, Mr. Chairman, you know better than anyone else, FAA 
is primarily an operating agency. Two-thirds of its funding 
goes to operating costs. Seventy percent of that is needed to 
make payroll. We all know what happens when operating budgets 
are pitted against transformational capabilities. Operating 
budgets win.
    We also know that the agency's facilities and equipment 
budget, where most of NextGen is funded, was already projected 
to decline slightly over the next 5 years. I fear that if these 
additional cuts are disproportionately applied to NextGen, we 
may never recover the momentum we have today, or regain the 
support of a skeptical industry. We will lose our technological 
stature in global air traffic management to other, fast-moving 
nations in Europe and Asia. And when our economy and air travel 
begin to pick up--as we know they will--we will not be ready 
with the new technologies that are needed. In short, Mr. 
Chairman, as budgets get tighter, FAA's role in explaining and 
demonstrating NextGen's benefits will become more critical. 
Likewise, AIA is doing its part in that education campaign, to 
make sure that our aviation system remains second to none.
    Mr. Chairman, the National Airspace System is a ballet of 
sorts that plays out each day in our skies and at our airports. 
It involves the planning, coordination and actions of flight 
crews, dispatchers, airports, and air traffic controllers, to 
name just a few. FAA's services are providing businesslike 
benefits to the U.S. economy, something relatively rare in the 
Federal Government. Inefficiencies in the management of our air 
traffic control system, or lack of capital investment, have a 
direct impact on industry, and stifle our ability to compete. 
And that's where the NextGen Test Bed comes in.
    FAA and industry need an environment where NextGen concepts 
are tested without affecting the day-to-day operations of the 
air traffic control system. The agency needs to model, 
simulate, and verify new technologies under different 
scenarios. These results will help the FAA make data-driven 
decisions that speed up NextGen's implementation, and bring 
benefits sooner.
    Mr. Chairman, there is no better institution to assist FAA 
in the Test Bed than Embry-Riddle, the world's largest and most 
prestigious aviation and aerospace university. They have 
advised the FAA for over 30 years, and I counted on their 
advice when I served as FAA Administrator. Professors, retired 
controllers, and pilots, as well as Embry-Riddle's fleet of 
over 90 aircraft will all have access to the new NextGen Test 
Bed.
    With the help of a growing number of industry partners, 
Embry-Riddle has doubled the size of the Test Bed and vastly 
increased its software and tracking capabilities. The Test Bed 
now works with at least 15 companies. In fact, industry has 
invested at least $1 million of its own in the Test Bed. This 
is a clear sign of industry confidence. And it is a great 
example of public-private partnership--companies, academia, and 
the Government working, and jointly funding, a program to 
address important challenges.
    In conclusion, Mr. Chairman, we have recently been 
celebrating the life of Apple co-founder Steve Jobs. With his 
inventive genius, Jobs helped untether the world from the wires 
of mainframes, landline telephones, and CD changers. And that's 
exactly what NextGen promises to do for aviation. It promises 
to untether air traffic control from ground radars, phone 
lines, and voice switches. It promises to untether aircraft 
from the fixed airways they fly through today, allowing them to 
fly routes that are most efficient for their users.
    Just as Steve Jobs saw that the world of consumer 
electronics was ready to move beyond boundaries set in the 
1960s, so too is the world of aviation. In fact, the aerospace 
industry is chafing at those bonds today. So it's exciting to 
be here as Embry-Riddle, its industry partners, and FAA help 
make the vision of NextGen a reality.
    Mr. Mica. Thank you for your testimony. Mr. Bunce.
    Mr. Bunce.----several Embry-Riddle graduates, and I rely on 
them each day and very senior leadership positions to be able 
to help guide the general aviation portion of this industry, 
and the product that you produce here is first hand top notch.
    And it also is pretty neat for me to be able to walk around 
this campus. Every time I come down here, I am really struck by 
the nature of the international flavor that you get down here. 
And our industry is global. Right now, we are hurting badly 
because of the economy in the U.S. and Europe, and over 70 
percent of the revenue that we will bring in this year is from 
sales of aircraft going over to the Far East down to Latin 
America and the Brazil area, and areas of the Middle East. So, 
the global nature of this industry really relies on the 
education that----
    ----is out at airports. We are partnering with academia to 
be able to leverage the ADSB technology that is going to be 
mandated in most aircraft by 2020. And the traffic situational 
awareness alerting system basically allows general aviation 
aircraft to have an alert warning system like the airlines have 
with their system call TCAS, but TCAS is just too expensive to 
put in most of the general aviation aircraft, other than just 
the high-end business type of aircraft. So, this is extremely 
important, and MIT is partnering with the FAA on that issue.
    We are celebrating the 10th anniversary of a program that 
we called the Center for General Aviation Research. CGAR is the 
acronym we give to it. But it is part of the Center of 
Excellence program that the FAA has set up with academia, of 
which Embry-Riddle is one of the premiere players in this.
    What we get out of that is absolutely phenomenal. When you 
look at the fleet of aircraft that is out here on the ramp at 
Embry-Riddle, just being able to use ADSB to tracking the 
fleet, getting the data in that helps us understand we are in 
high-density aircraft and traffic environments so we can go and 
be able to use ADSB to be able to precisely manage aircraft is 
important.
    Dr. Johnson mentioned what we are doing on the research for 
the unleaded avgas that we have to convert to. We know we have 
got to get away from leaded fuel, and they are helping us 
tremendously there.
    Accident trend analysis becomes very important, and 
probably the premier thing that we are getting out of the CR 
initiative is experience in looking at glass cockpit technology 
and looking at training standards and testing standards to be 
able to allow people to use glass cockpits. And we all know 
that that technology is now going into a lot of airline 
aircraft, but if you go into a modern business jet or a turbo 
prop today, or the high-end pistons, you are going to find 
actually a more advanced glass cockpit that you find in most of 
the airlines right now. And so, the research that we are doing 
here is very important.
    Now, could we do some things better? I think we can. We do 
not have a lot of money in industry right now, and we are not 
able to give academia a lot of research dollars to help us with 
some of the issues and some of the projects that we want help 
with. But we certainly would appreciate a call from all of our 
institutions saying, hey, we got students that are going to 
have to write papers; are there topics that you want us to 
research for you? And we can leverage them, and actually it 
helps the students because you get a paper, and one of my 
employees is a prime example of this. He wrote an outstanding 
paper, and Cessna hired him the day he graduated just off the 
paper that he wrote here. And we can leverage off of that.
    Also, the FAA is very software dependent right now, or we 
as an industry are software dependent, and the FAA's very 
limited resources to be able to go and help us certify product 
that is almost wholly software dependent. We are in a situation 
right now because of resources available at the FAA that were 
in sequencing issues where we have got to streamline processes 
to be able to get our product to market. But in addition to 
that, we need to be able to use the expertise that we have in 
academia with software expertise to be able to help the FAA 
help industry to be able to produce the products for NextGen.
    So, we are absolutely committed as the General Aviation 
Manufacturers to this public/private partnership, both between 
the FAA and industry, industry and academia, and academia and 
the FAA, because that is the only way we will make NextGen 
work.
    Thank you, Mr. Chairman.
    Mr. Mica. Well, thank you. And I want to thank all of our 
witnesses for their testimony. And the next order of business 
will be questions from Members of Congress to our panelists.
    I brought this headline with me. It says, ``modernization 
of air traffic may be delayed.'' It was a couple of months ago 
in the Washington Post. And we just heard the GAO cite that, 
let us see, that we do not need the most costs or schedules set 
forth, and gave an example of ERAM some 4 years behind 
schedule.
    Some of these programs are important components, parts of 
any next generation air traffic control technology. Mr. 
Administrator, maybe you could respond.
    The other thing, too, Ms. Blakey raised the issue of 
financing. I have checked in periodically, and told that the 
finances are adequate, but I heard that we are not keeping up 
in other aspects of moving forward. Would you like to comment?
    Mr. Babbitt. Certainly. I guess one of the issues with 
these projects, and you noted ERAM; that is a good example. 
ERAM is probably one of the largest software that is currently 
going on in the country [inaudible] doing other things.
    The program has been going 9 years. When I became the 
administrator, one of the things we clearly had run into some 
technical difficulties. I literally stopped the program, and I 
asked everyone to just step back, and let us completely 
reevaluate where we are. What is the issues? Are we having 
proper program management oversight? This is technology; are we 
really being asked to deploy oversight and management program. 
It was being vetted before our eyes.
    Yes, we did it. I am very comfortable now, however, that we 
have reestablished a new waterfall schedule in communication. 
We are on that track. We are currently, to the best of my 
knowledge, on budget. It is a huge project, which you can 
imagine. We are changing an entire analog system that has been 
in existence for nearly 40 years in a complete digital 
integrated environment. But I am comfortable in saying going 
forward I am very comfortable with the targets, and we should 
be able to stay on the revised scheduling.
    Mr. Mica. Dr. Dillingham, one of the things that concerns 
me--we do have three Test Beds. I have read your analysis of 
their mission. Do you view any of it as duplicative, or do you 
think they all serve, again, a beneficial purpose in this long-
term development?
    Mr. Dillingham. Thank you, Mr. Chairman. As we analyzed the 
three Test Beds, we did not see anything duplicative. But what 
we understand is that research has to be validated. And we saw 
some of that, but we would not call it duplicative. But it is 
the kind of repetition that you need to do when you are doing 
research to reduce risk.
    So, the short answer is, no, we did not find any 
duplication that we would say is unnecessary.
    Mr. Mica. Well, one of the things that was raised, issues 
that was raised, is we have developed some technology and maybe 
some systems or some protocols, but there seems to be a delay 
or a failure to utilize, take these improvements to the next 
level. Any suggestions? Maybe two of the participants, Mr. 
Caslavka? Any ideas on how we could improve that? You are 
involved in an important component. Do you see that as a 
problem, and how can we solve it?
    Mr. Caslavka. Yeah. I mean, from my perspective, I want to 
see us continue to advance in that area. You know, 
specifically, I see it as a benefit for business and for 
academia, an improvement for business and academia in that 
area.
    As you know, when we look at what we hope to gain from our 
adventure here with Embry-Riddle and the organizations that we 
have here, we have performance-based navigation and front 
management systems that aid in the development of a Test Bed 
and the initiatives here with the tasks we are involved with. 
And improving flight in the national airspace is fundamentally 
important as over the next 20 years we see issues with flight 
traffic almost doubling in that timeframe.
    Mr. Mica. Well, you know, you are from the private sector. 
You are not doing this just to keep all these occupied Wall 
Street people happy. You want to sell a product, either 
hardware or software, or systems, and it appears that while we 
may be developing some, say, the next generation of equipment 
software technology, that it is not going anywhere. How do we 
take it to the next level?
    Mr. Caslavka. So, I do not necessarily view it as not going 
anywhere. If you look at airspace travel today, a lot of the 
systems that are in use today in air traffic do have adequate 
flight management systems and adequate performance-based 
standards of opportunities. So, it is just a matter of 
continuing to evolve that and grow it beyond where it is today.
    We are currently working initiatives that are heavily 
involved in performance-based flight management systems. And if 
you look at some of the studies that we have recently done, I 
mentioned earlier that we have over 340 PBN-based solutions 
today. But if you take a look at a recent study we put together 
for the FAA, we clearly see the benefits of emissions, fuel 
savings, noise pollution, and safety associated with the study 
that we did.
    And we looked at 46 airports here in the United States, and 
what the benefits would be associated with implementing 
performance-based navigation departures and arrivals. In those 
46 airports, over 13 million gallons of fuel could be saved 
over a 1-year period, 274 million pounds of CO2 emissions, as 
well as $65 million of operating costs in 2 years of flight 
time.
    So, the initiatives are getting off the ground, and what we 
are doing here with the tests that we have with Embry-Riddle 
are contributing. So, I do not view it as not going anywhere, 
but it needs to continue to move along.
    Mr. Mica. Well, one of the customers for the equipment, the 
big customer is FAA. Mr. Babbitt, one of the things that we 
have got in our proposed legislation--let us see. It 
streamlines the FAA certification for NextGen technologies and 
flight paths. Is that adequate to give you the direction? 
Again, things are produced. We want them installed. They do 
have to have some buy in to the customer, which is FAA and to 
the airlines, to the industry.
    And, again, one of the criticisms is we have deadlines. 
Someone said FAA not moving. We have some deadlines. We have 
some streamlining that is proposed in the bill. Speak now or 
forever hold your peace because this may become law very soon.
    Mr. Babbitt. Well, there are three important components 
when you build a system like this. Obviously we have to have 
ground-based construction to do deployments on schedule. We 
should be up and running actually ahead of schedule, and we 
want all of the ground-based GPS and AVS stations.
    Secondly, we have got to have the appropriate airplanes 
that you use. One of the things I talked about in the testimony 
is being able to prove that these things work, and having 
private partners like GE, who actually goes out and forecasts 
for us, they can [inaudible].
    The third piece is we simply have to have the procedures in 
place. We have undertaken of our own initiative a streamlining 
of the process where we have developed a procedure, not an old 
one, but a new procedure. And we have eliminated about 50 
percent of the time to develop that. We simply went through 
using the lean and the Six Sigma reviews. Where were we wasting 
time? What was taking this process so long? Do you mind if we 
streamline that? So, I am comfortable that we are on the right 
track.
    Now, all these three parts just simply have to play 
together. It does not do us any good to have all the equipment 
and all of the both airplane and ground and not have 
procedures.
    Additionally, we have got to train the pilots and the air 
traffic controllers. We also get to a point of having a 
critical mass who are affected, for example, if we have 50 
airplanes an hour arriving at LaGuardia, and only three of them 
were equipped and ready to shoot the arrival approach, 
approach, that does not fix LaGuardia. If 45 of them do, you 
know, best equipped will have to best. So, I think we 
appreciate the support, and I think we are on track.
    Mr. Mica. What about the deadline and the blueprint that is 
set out here? Do you think that is adequate?
    Mr. Babbitt. I do. I do.
    Mr. Mica. Well, let me go to the industry folks, Ms. Blakey 
and Mr. Bunce. What do you think? Again, you have seen what has 
been crafted and drafted. Is this adequate to keep this on 
schedule? Ms. Blakey?
    Ms. Blakey. I think it is. More specificity about the 
schedule and the metrics that need to be met is going to be 
very important. In other words, fleshing this out, because that 
cannot all be done through legislation. We think industry 
working with the FAA on the specifics here will work well.
    We are also keen to see further integration of these Test 
Beds, and the research that is being done, for example, at NASA 
and Mitre, and others, very important work, all integrated 
together closely, and really tracked right into a demonstration 
and into operations.
    Mr. Bunce. Mr. Chairman, I would add just two things, and I 
will drill down a little bit on what Marion said there.
    The first one is on the metrics. I know that we have a 
great partner in the administrator, and he is working very 
closely with us. But he has got to steer a ship that is very 
difficult to steer. And the first thing that you have to do is 
you have to adopt metrics that we can measure success of 
NextGen. And your committee put forward metrics in your bill, 
and I understand that the Senate somewhat agreed to it, and it 
is frustrating for us in industry not to see an adoption right 
away even before the bill is passed, of metrics that we can go 
ahead and measure progress against. So, I think that is step 
one.
    The second one is exactly what Marion just mentioned. The 
United States military went and they networked all their 
simulators between their fighters, tankers, bombers, so that 
they could save money, and they could fly missions like they do 
out at Nellis Air Force Base, red flags, just with folks 
sitting on terra firma in simulators, everything all linked 
together. We can do that as well. And that critical mass that 
Randy was talking about that we have to get is extremely 
expensive when you're driving people around in the air burning 
gas, and we have to wait until some mandatory equippage dates 
to be able to drive some of that critical mass.
    But we can do it by networking simulators and centers of 
excellence together to be able to go and test some of these 
concepts. Data link is one of the primary ways that we can go 
and take a look at what it looks like, get all of these 
centers, controllers at one, students at the other, because if 
you think about whose flying our airplanes, and that it is 
young people. And if they get down in the systems for data link 
and prove it against grizzled old controllers, the system will 
work.
    Mr. Mica. Finally, well, two things. One, have you got 
enough money, and from what you have seen, our authorization 
does, I think we are going to end up with a higher rather than 
a lower figure. Is that adequate from what you have seen?
    Mr. Babbitt. We submitted this [inaudible], but it probably 
would not be, you know, totally accurate. We understand, like 
everybody, is that this was [inaudible] today. I think the 
funding enables us to do a lot of things. I think one of the 
important parts about our budget request is this is one of the 
few agencies, as you pointed out, that we are an operating 
agency, but a lot of what we put in place here would be 
operational equipment facilities, and just like if we were a 
board of directors. And we looked at whether we should buy new 
equipment, we would ask what equipment, we would tell you it is 
very positive.
    The faster we can buy the equipment, the faster we can put 
it into place, the more quickly we would use it. You are going 
to be able to benefit from it, save that fuel, reduce that 
noise, increase throughput with airports. Airports are assets. 
People pay a lot of money to build an airport in a town, and 
they want to serve that town. And if we can increase the 
throughput formula, the investment in equipment would help. 
Then we would get our money back.
    This is one of those cases where we appreciate what we get 
paid on the--but I would suggest the kind of money belt that we 
are looking for, we might be able to deploy that equipment more 
quickly.
    Mr. Mica. Well, the final thing, and if anyone wants to 
comment, this is a global race, too, because whoever accepts 
the protocols and develops the technology, the software, the 
systems, also wins the world market. And that is a prize that 
generations will benefit from, and it will be in place. Anyone 
want to comment on how we are doing compared to the Europeans 
and even, I guess, the Chinese in their own little march?
    Mr. Johnson. Mr. Chairman, we are a global institution. We 
have 150 campuses around the world--14 in Europe, 3 in the 
Middle East, and we just opened 1 in Singapore. So, we have a 
good deal of opportunity to interact with the aerospace leaders 
in those regions. Our faculty and our administrators interact 
fairly routinely with both the private companies and 
governments around the world as we establish campuses and 
relationships.
    Our clear perception is that we are in the lead. Europeans 
are working very hard on NextGen technology. However, the 
United States has an edge in not only the genius of our private 
industry and our universities, but also because we have 
established some integrated efforts to bring together 
universities, private partners, and Government toward a common 
purpose.
    I believe we are on track to develop the kind of technology 
and deploy a system that will improve our national air 
transportation system more quickly.
    Embry-Riddle is working on establishing an aerospace 
research and technology park. Our motivation is to try and 
contribute to the safety and efficiency of our national air 
transportation system.
    In addition to NextGen, we are working on unmanned 
autonomous systems and whether or not unmanned aerial vehicles 
can be made safe and reliable in commercial airspace. We are 
conducting research with other universities as well as selected 
aerospace industry partners to address these concerns.
    So, the short answer, Mr. Chairman, is that I think we are 
ahead.
    Mr. Mica. Dr. Dillingham.
    Mr. Dillingham. Chairman Mica, we just recently completed a 
study for your committee with regard to how the U.S. is faring 
with the Europeans and their effort of SESAR, which is the same 
as our NextGen. And they are having similar problems as the 
U.S. in terms of bringing it all together because of the many 
countries that they have to bring together.
    But besides that, I think the FAA is probably doing a 
tremendous job with regard to working with the European Union. 
They just signed an MOU that described how they would work 
together and what they were aiming for. We also know that FAA 
is a significant player in the International Civil Aviation 
Organization, and they are also moving in that direction.
    I think one of the differences between the U.S. and the 
Europeans is that the Europeans started off with a public/
private kind of orientation. I think we have caught up with 
them, and the linking together of the Test Bed, and academia, 
and FAA, and the rest of the Government is the way that is 
going to keep us ahead of the game.
    Mr. Mica. Thank you.
    Mr. Caslavka. Mr. Chairman, I would like to comment on that 
as well.
    Mr. Mica. Yes.
    Mr. Caslavka. So, I concur with what Mr. Johnson is saying 
relative to how we are progressing against SESAR. I do believe 
that we are ahead today, but I am concerned as an industry 
partner that we need to continue to look at policies very 
firmly. We need to continue to invest in the technologies like 
the demonstrations that we are doing here with trajectory-based 
operations and performance-based navigation. So, it is 
extremely important that we keep those things on track, we keep 
them funded, and we keep industry involved heavily with the FAA 
jointly progressing these initiatives.
    Mr. Bunce. Mr. Chairman, I would just add that when I look 
at SESAR and NextGen together, they truly can be complemented. 
If you look and you go into some of the specifics that Mr. 
Dillingham was talking about, if you look at ADS-B, we are far 
ahead. They do not have any ground infrastructure deployed, and 
they really do not have a good plan, so ADS-B does not work 
unless you have a ground infrastructure. So, we are obviously 
going to be ahead there.
    But they are mandating equippage for data com much earlier. 
We do not have any mandatory equippage except for data com. 
They do, so industry is going to adapt to what the Europeans 
require, and we need to leverage off of what they are going to 
learn in data com for our systems so we can leverage what is 
valuable in both.
    And then, you take what the Chinese are doing, and I really 
want to compliment the FAA administrator here because a lot of 
the rulemaking that is going forward now for aviation is 
something that we have to do in tandem with our partners. So, 
the FAA administrator has been very willing to allow us to 
invite observers from EASA to be part of rulemaking, and now 
also the CAAC, the regulatory body within China, because if we 
get a one set of regulations for our equippage out there, then 
industry can universally go and equip, and we do not have to 
have different aircraft flying or different aircraft equipped 
to fly in different environments. We have to have that, and 
really Administrator Babbitt has been a partner with this.
    Mr. Mica. Again, we hope this sets the parameters, at least 
for the next 4 years, of legislation. I was asking staff if we 
have a data com provision in there. We will check that, and if 
there is something we can do to ensure that we are, again, 
moving forward--anything, Mr. Babbitt?
    Mr. Babbitt. Yes, sir. I would only add, and I appreciate 
the observations made. I think there is a fundamentally a 
pretty significant difference between the way the Europeans are 
approaching this. They have as, Mr. Bunce noted, they do not 
have an infrastructure. It is all theoretical. We, on the other 
hand, field test, prove using the Test Beds, we take concepts, 
we develop them, we test them, we demonstrate them, we put into 
the systems. We have 250,000 square miles in the Gulf of 
Mexico. We are moving traffic today in positively controlled 
environments using ADS-B in partnership with the industry, 
helicopters, petroleum.
    So, we are testing these things. We have a half a dozen 
airports around the country where we would actually use a 
profile on these things where we save 60 gallons of fuel every 
day, and we will continue to expand it.
    So, ours is a build, implement, and expand type of process, 
work with the industry. We have a variety of sources of input, 
and that is why I think this Test Bed will help us remain in 
front and make a lot of progress.
    Mr. Mica. Well, we trust you. We are just going to verify.
    [Laughter.]
    Mr. Mica. Let me yield for the purpose of questions. 
Chairman Petri.
    Mr. Petri. Thank you, Mr. Chairman. Just one quick comment, 
and that is that Administrator Babbitt just spoke briefly about 
the enormous pay off. We recently had a hearing where a 
representative of one of the leading international accounting 
firms said he had looked at and analyzed this. And it is a slam 
dunk from an investor's point of view. If things were done on 
schedule by 2018, they predicted an over 40 percent return, and 
if it could be done, as you indicated, possibly 3 years 
earlier, it would be over 60 percent return on the Federal 
investment. And that is astonishing.
    And, of course, it is not just a light switch you turn on 
and off. You are putting in place a whole new procedure that 
will tend to gain momentum and spread through a major sector of 
the world's economy. So, it is very important.
    One question. When I talk about this whole thing to rotary 
clubs or service groups back in my district, they were very 
excited because we are a little glum about Government, you 
know. And right now, things seem to be negative. But this is an 
area of great, positive, you know, it is a bright, shining 
light of progress in a lot of areas.
    One question I get constantly is, what about security in 
terms of what if someone were to wish us harm, whether another 
country or some other group? Is there a way they can shoot down 
a satellite or foul the thing up? And if we put all of our eggs 
in this basket and move off radar, will we be vulnerable? Could 
you discuss that?
    Mr. Babbitt. Sure. That is a concern, and we should have 
that concern for any navigation system that we have. We have 
backup alternatives. One of the areas that we are researching 
is what would be our primary fallback? For some reason, it is 
hard to imagine that we could lose an entire array of 
satellites possible. So, it still would be a very long time 
before we get rid of primary radar. The military is not going 
to be without it.
    We have other tools on board the aircraft today. Most of 
the modern aircraft are equipped with modern capabilities, 
which means they listen to any number of things. Most modern 
airplanes built in the last 10 years have inertia navigation 
where the airplane just knows where it is by its own virtue. It 
knew where it started, it maintains awareness of its movement, 
and, therefore, it--all of those are capable of being 
translated, and all of those are a check against their own GPS.
    So, we have some alternatives out there, and we will deploy 
them. But you are right, some of this is grounds for mischief, 
and we want to protect against that just like we concern 
ourselves with cyber security. We will use our structure for 
communication and data to cover some of these things.
    But I am comfortable that we have enough backup in place 
if, you know, we have a threat to the entire system.
    Ms. Blakey. Mr. Chairman, if I might add one point, because 
we have the opportunity as industry of observing the Joint 
Planning and Development Office's work among the agencies. 
There is a good partnership there, and that jointness is 
important.
    We would love to see more energetic engagement from the 
Department of Homeland Security. I think that is an area where, 
frankly, we do need the committee's help in terms of urging the 
DHS to become a more active partner when it comes to the 
security front. And I would support that.
    Mr. Mica. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. Mr. Babbitt, how 
confident are you that in 2018 we are going to have a roll out?
    Mr. Babbitt. Oh, I am highly confident. Highly confident. 
We will have our ground infrastructure fully operable 4 years 
before that. And I think, again, in the business case, how well 
the system is embraced is highly dependent on the insurance 
that people get. We did see one of our early adopters come into 
place, and we are looking right now as to what happened early 
on. They had a high percentage of use, and now Congress says 
they are not using it as much. Well, why? The controller is not 
educated or the pilot is not asking for the approaches and so 
forth.
    We want to get to the bottom of that because we want people 
to use it. The more people that use it, the more savings that 
are going to be there to sell [inaudible] equipment use.
    Mr. Shuster. Mr. Petri point out. I have read some of the 
same analysis that he has read that here is the business case, 
strongly one of them. And I guess the ultimate end user is the 
airlines. Are they talking to your folks at Boeing and Mr.--is 
it Bunce? The General Avionics folks. Are they trying to pull 
it forward with the end users that want to buy these things? 
What are they saying when you ask the question?
    Ms. Blakey. I think from the standpoint of the airlines, of 
course, the airlines are the ultimate customer for a great deal 
of our aircraft parts and operational aircraft deployed. They 
want to get the most out of the equipment that is already on 
the aircraft. I think that is fair to say that this is a lot of 
capability that is flying up there now. They also feel it is 
critical to get the system in place because that is the only 
way that they are going to be able to deal with the traffic 
that is coming.
    I think from the standpoint of our manufacturers, our 
greatest threat is the issue that the system will not be ready 
for the traffic that is coming, and congestion, and the 
dampening, therefore, of demand and dampening of our economy. 
It is a huge problem. We are genuinely worried about it.
    Mr. Shuster. Which part of the system? You pointed out the 
three parts, procedures, the infrastructure, or the equipment? 
All three of them will not be in place, or they are concerned 
about not being in place, or one of the three they are 
concerned about?
    Ms. Blakey. I think the first two really have to come into 
play because it is not reasonable to ask businesses like the 
airlines, which frankly struggle to make the kind of corporate 
investment that is needed for equipment, unless they are pretty 
sure. The infrastructure has got to be there and the support. 
It is like asking people to buy cars, but there are no 
highways. That does not work.
    Mr. Babbitt. We use the analogy that I use is the high-
definition cable box. And say, well, how many network 
challenges I am showing. So, if it is 2 now, then we are going 
to get 50.
    [Laughter.]
    Mr. Babbitt. When you get to 50, call me and I will buy a 
lot of them.
    [Laughter.]
    Mr. Babbitt. And that is sort of where we are. We need to 
produce those procedures, and that is a hurdle that we need to 
achieve.
    Mr. Caslavka. Chairman Shuster, I think that it is really a 
conundrum that the administrator pointed out because it has 
chicken and egg. It is chicken and egg, because the ground 
infrastructure will be in place, and in 2013 we will have the 
ground infrastructure out there. We need to have critical mass 
for equippage, and we need to have those procedures out there.
    Procedures right now that simply overlay today's approach, 
they can give us some benefit, but the true benefit is when we 
can develop new approaches, redesign airspace, and, of course, 
we have environmental concerns there. If we could streamline 
that NEPA process, that is really one thing that can help us a 
lot.
    But on the equippage, what concerns us is we have to see 
those types of benefits, and the conundrum that the 
administrator is in is, as he pointed out, if only a few equip, 
then you actually get less efficient if you give them best 
equip/best serve, because then you have got to put everybody 
into a different pipe if you segregated runways.
    So, if we can figure out a way, this idea of an 
infrastructure development bank, or some of the creative ways 
that we have some of our different companies say, OK, we will 
loan to the money to people to equip, and as soon as they can 
accrue some of the benefits, then they have to be able to pay 
it back. When we have a surefire way to measure these benefits, 
OK, then they will start paying back. That is a way that we 
could potentially achieve the critical mass that we need to 
make this really work rapidly.
    Mr. Shuster. You mentioned earlier about metrics. We put 
into the legislation--I think I heard Mr. Bunce answer the 
question. I do not know if he fully completed it. Is there any 
prohibition on you accepting what is in there now and saying 
this is what we are going to use? Is there any reason you 
cannot move forward without legislation being passed?
    Mr. Babbitt. Well, I would like to think it is in our best 
interest and the industry's best interest to deploy everything 
we can as quickly as we can and benefit from it. They made the 
investment; we made the investment. I mean, metrics are good 
targets.
    One of the things that we struggle with a little bit is 
this is a very rapidly developing and new integrated 
technology. So, the metrics, you know, we have to be careful 
that we do not get about halfway through it and somebody says, 
hey, we have a whole new, better data system just invented 
yesterday; we should use that instead.
    Metrics change. Our process changes at some point. And we 
have to accept them the way they are, but we are never 
[inaudible]. Things will come out of this Test Bed we have not 
even thought about yet. I am certain that in 2 years it will be 
something here that we should deploy.
    Mr. Shuster. Dr. Dillingham.
    Mr. Dillingham. Chairman Shuster, I wanted to add that this 
is an opportune time to go forward in that we recently had the 
RTCA report that made a lot of suggestions for near-term, mid-
term implementation of NextGen. And FAA has taken those 
recommendations into its plan and is beginning to move towards 
implementing them.
    This is one of the first times that we have had airlines, 
avionics manufacturers, FAA, everybody at the table saying if 
you do this, if you bring these benefits in this timeframe, we 
are on board.
    And so, this is an opportune time to make it go forward.
    Mr. Shuster. But you also said in your report that you did 
not think that the private industry stakeholders were brought 
into it at all.
    Mr. Dillingham. Yes. That is one of the things that has to 
happen, that those who are participants need to be a part of 
it. Otherwise, you run the risk of when that system is fielded 
or the beginnings of fielding, that the people who operate it 
will say, this does not work for me. And it could be something 
as simple as, this button feels like this button, and I am 
watching the screen, and I cannot do it. Or it could be 
something a lot more sophisticated in terms of software 
development. But, yes, you definitely need to bring those on 
board.
    And that has been legislated as well. So, hopefully lots of 
things are in place to make it work.
    Mr. Shuster. Are you saying now that they are not fully 
involved in it and they need to be?
    Mr. Dillingham. They were not fully involved early on. Now, 
there is legislation and there is the will to involve everyone. 
So, the promise there.
    Mr. Caslavka. So, let me talk from an industry perspective 
as well. Clearly we have made a lot of investments associated 
with NextGen, even before it was NextGen, in our FMS solution, 
and also in our procedures for performance-based and arrivals 
and departures.
    So, I had a meeting with my team here just within the last 
2 weeks where we are looking closely at what are we going to do 
in support of NextGen from an investment standpoint. And we 
laid out a strategy in those areas. So, we are focusing on 
that.
    This does not have to be a homerun. It can be incremental 
steps. And, yes, we run into issues, like Mr. Bunce indicated, 
relative to implementing new procedures to get the efficiencies 
associated with landing and departures. But we can take those 
steps, and we are trying to work with Mr. Babbitt and his team 
to make those steps possible. Start with selective airports and 
continue to progress to realize some of the advantages so you 
can do more of an incremental approach rather than just go for 
the homerun.
    Mr. Shuster. Do you feel that you are involved at a level 
you need to be at this point?
    Mr. Bunce. I think that the FAA brings us on board. Again, 
go back to the metrics. I think that it is important to measure 
where we are today because if you think about it, every time 
any one of us jumps on an airplane today, they are in an open 
seat. So, we contracted about as much as we can contract. The 
only way we are going to go is more aircraft out there, both on 
the commercial side and on the general aviation as soon as this 
economy starts to really recover.
    So, for us to be able to measure, OK, what happens, what is 
the baseline today, and real metrics that we can go and then 
measure against as that traffic builds, and we implement the 
NextGen technologies I think becomes very important.
    Mr. Shuster. Mr. Chairman, I have one more question.
    Mr. Mica. Go right ahead.
    Mr. Shuster. And this comes up over and over and over again 
throughout the Government, different agencies who all work 
together, like you said, DHS and DOD. I just thought maybe you 
could address it. What do you think is DHS' problem? Why are 
they not engaging in this area? Is it just the cultural 
differences in DOD, or they do not have time for it, or they 
are just not engaged at this time? I cannot get through to 
these agencies that it is so important when we talk about 
something--security. It is about safety. So, they need to be 
engaged.
    Ms. Blakey. You know, I can speak to that problem from my 
historical perspective on this, and then I would yield to 
Administrator Babbitt on this and Dr. Dillingham. But what I do 
think has been part of the problem is that DHS has not grasped 
the vision that NextGen brings to the transformation of an 
aviation system.
    One of the biggest obstacles all of us see for aviation to 
realize its potential in this economy and this country is 
security. It is the hassle factor. It is the time, which is, I 
think, by almost everyone's standards, unreasonable today.
    That vision of building security into the system, building 
in network information so that you really do begin to have 
total gate pushback to destination security built all the way 
through in the information management system is something that 
could be done. But we do not see DHS, in my historical 
experience, stepping up, probably because they were forming at 
the time. They had a lot on their plate. I think it was in the 
early stages of NextGen.
    But, as I say, I would yield to Administrator Babbitt on 
the current situation.
    Mr. Babbitt. I think some of the issues that might be there 
are the perception of emission versus hours, and private would 
be included in that. And I think we are making some progress, 
trying to improve them. We have got the displays. We think it 
would be critical information to know a lot about a particular 
flight. Sometimes they, for security reasons they want to know 
a number of things--how much fuel is on this airplane, where is 
it on the airport. We can help them with a lot of those things.
    And so, I think we are beginning to realize the benefits of 
some of the security areas. It always provides the 
opportunity----
    Mr. Shuster. Did DOD say long-term----
    Mr. Babbitt. Actually, DOD, from my perspective, did 
partner with us. We have got a good relationship with them, 
particularly DDO. It is a melting pot of information. I think 
it is actually very reasonable when we do some of the things 
that we are doing. There are a lot of stakeholders. We are 
talking about using a GPS, so a lot of people use GPS for a lot 
of different things. So, when we want to change it just for 
airplanes, a lot of other people go, whoa. Just the impact of 
what we use it for.
    And so, we have got to have those places where we can have 
common dialogue and explain what the uses are, how they could 
better use it. Airlines are finding this flight object display 
really useful. They know a lot about the airplane--
    Mr. Shuster [continuing]. LightSquared utilized like they 
want it to be? Do you have great concerns about it?
    Mr. Babbitt. Well, I have great concerns about it. They are 
a company who proposes to build an infrastructure to take 
broadband across the United States. The original approaches to 
using satellite broadcast signal within GPS had no impact. They 
have since changed the business plan with ground base 
modification that had about 1,500 times more powerful a signal 
than [inaudible].
    There is literally multiple, billions of dollars are 
invested, hundreds of billions of dollars invested in 
navigation systems, GPS equippage, and [inaudible] stations all 
over the world. And to jeopardize that because someone has a 
[inaudible] has us concerned.
    So, I think the FCC has realized the interferences there. I 
think there are stations that could [inaudible]. I do not think 
anybody in industry thinks that is a good idea. So, we are sort 
of waiting for the FCC at this point.
    We have spoken pretty strongly to DOD, Homeland, a lot of 
industry itself, people in manufacturing. It is kind of 
lonesome right now in finding support. We are concerned it will 
have an impact.
    Mr. Johnson. Yes, Congressman. I want to point out that the 
implementation of the basic system is not a technology problem. 
The technology fundamentally is in place. Yes, we are doing 
some new software development for some new systems. But 
basically it is taking existent technology and integrating in a 
way that has not been integrated before to serve our needs.
    I think that Ms. Blakey's comment about vision and about 
getting rid of silos and cooperating with each other are the 
real challenges. This is where we look to Congress, this 
committee, and to the FAA to help us integrate and provide 
oversight, learn to share with one another.
    But the basic technology is there. It is existent. We can 
develop the software. We have outstanding software engineering 
in this Nation. We can develop what is needed. Our private 
industries' research and development is par excellence, and we 
are moving forward aggressively. Technology is not the 
obstacle. It is the human dimension that we have got to 
address.
    Mr. Shuster. I think my time has expired.
    Mr. Mica. No problem. Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Chairman. I had a 
couple of questions. We were talking a little bit about the 
integration of UABs into the domestic air system. We are seeing 
more and more UABs flying within this country now where we are 
using them not only to control the northern and southern 
borders, but also in the rescue operations and other life-
saving operations.
    Administrator Babbitt, are we going to be able to do this 
before NextGen? Are we going to end up having to wait to 
NextGen to see more integration of UABs within the domestic air 
system?
    Mr. Babbitt. Well, it depends somewhat. I mean, certainly 
if we had, before we fleshed out, a NextGen system in place, it 
makes the operation a lot better. The fundamental concept with 
the UAB and deployment with [inaudible]. The answer to any of 
those is, no, it is not a good, cooperative maintenance.
    So, we are making a lot of improvements to the autonomous 
operations and [inaudible]. There is the time between winning 
consensus and taking action and when it actually takes that 
action. It is way too large to be mixing with the normal 
airspace system. So, we sort of relegated it to airspace where 
we can provide that extra margin because it does not respond as 
quickly. And that will work for now.
    We are working on reducing those margins, reduce the legacy 
times, improve the machine's ability to--and take actions.
    So, I see wonderful machines. They do a lot of great 
things. If somebody just gets up out of the chair and nobody 
sits down. We can do a lot of interesting things.
    Mr. Farenthold. And, Mr. Caslavka, I know what GE is 
working on. When are you going to be comfortable with your 
family sitting in that 737 operating near one of those?
    Mr. Caslavka. So, my perspective is you really have to roll 
out NextGen before you have the infrastructure in place to fly 
on top of those vehicles. You need trajectory-based operations 
to be functional. You need the data link communications back to 
the FCC. So, you really need to have those in place in order to 
feel safe on those vehicles.
    It is important to note that they will have a role, we 
believe, at some point, whether it is border surveillance or 
search and rescue. They will have a space in national airspace. 
So, we need to roll out the infrastructures that provide for 
that.
    And we are currently, as part of our initiatives here at 
Embry-Riddle, involved in a task that is going to view some of 
that initial testing of trajectory-based operations. So, that 
is part of the ongoing activity here at Embry-Riddle.
    Mr. Farenthold. All right. And, Mr. Bunce, you know, you 
represent folks in the general aviation industry. And in 
general, I would imagine they are going to be the last adopters 
of this NextGen technology when you are talking to obvious 
pilots, or the crop dusters, or the guy who flies his plane 
into his ranch.
    I mean, we have got general aircraft now that do not have 
even transponders in there, mature technology. Is there a price 
point issue there? Are we going to be able to get enough of the 
general aviation folks in where we are able to really see the 
true benefit of some of this new technology?
    Mr. Bunce. Well, sir, I think it is a matter of degrees 
here. Actually general aviation has been the first adopter of a 
lot of this technology. So, you take, for instance, the types 
of GPS-based approached that we have populated this country 
with. In fact, the administrator talked last week at a speech I 
was listening to that we have reached a tipping point. There is 
actually more GPS-based approaches out there than there are the 
traditional instrument landing type of system approaches. That 
is because general aviation uses these.
    We can get into airfields that we never possibly could have 
got into before because we have this technology, and we have 
integrated through our systems--why we are so concerned about 
life squared is because we have had so many of our airplanes 
adopt systems that can use what is called WAAS, which augments 
the GPS to allow us these precise approaches.
    So, I would actually argue that there is a lot of general 
aviation that has more modern cockpits that some of the 
airplanes that I transit with on the airlines. I looked in a 
cockpit the other day on my iPad. I have more situational 
awareness of what the weather is ahead and where we are 
actually going than the poor pilot up there because just that, 
it is very expensive to upgrade those cockpits. So, the cost 
for ADS-B is starting to go down.
    My wife flies a Cessna 172, very light basic airplane out 
there, so I equip with ADS-B. I have ADS-B out in the aircraft, 
and it cost me $600 more than what I had to put a new 
transponder in, and it integrates with the GPS system. So, it 
was about a $600 differential.
    So, the cost is coming down, and it is reasonable, but we 
have got to be able to go and make sure that the benefits are 
there. And the real key in ADS-B is ADS-B in. And when we can 
start getting people to want to equip so that they can traffic, 
and they can get real time weather, we are going to make flying 
safer in this country. And that is really the golden goose 
right there is being able to get people to see the advantages 
of ADS-B in.
    Mr. Farenthold. And I will go back to you, Administrator 
Babbitt, just on a kind of, I guess, pushing the airlines into 
implementing the technology. You used LaGuardia as an example 
about how few aircraft come in there. We have got Washington, I 
know the DCA airspace is very crowded.
    It seems like it is a carrot and stick approach--more slots 
in these airports, every plane you send in here is going to 
have to be equipped with this new technology. And there is no 
real Government requirement that you put it on your plane, but 
if you want the hot airports, you are going to have to do it. 
Is that something you all are considering?
    Mr. Babbitt. Well, we have considered it and actually 
implemented these things that require ADS-B, everything that is 
on the plane. We have not gone to, you know, particular 
airports. I think something Ms. Blakey said earlier is 
important, in terms of procedures, that we need have those 
developed in the areas, and then we will use them. For example, 
we have done it in the O'Hare area, the Chicago area. We have 
taken and separated the two airports, Midway and O'Hare, from 
each other. Earlier was one metroplex area. And so, if Midway 
Airport was operating at 60 percent of its capacity, and O'Hare 
was at 105 percent with major delays, well, Midway starts 
taking delays because it is the same airspace. Not anymore. We 
now allow people in RNP arrival procedures, they can go to 
Midway.
    So, if you have the equipment, you can use the arrival, and 
you do not have to wait. You do not have the equipment, you 
wait. How many times are you going to hold and watch other 
people go by you because they have the equipment? The answer is 
not long.
    I think it is important to note for general aviation, we do 
not want people to buy equipment they do not need. If you 
intend to operate a pilot in controlled airspace, you do not 
need to buy it. There are people today that have airplanes that 
do not even have radios in them, flying around their farms. 
They never get above 1,500 feet. They are good pilots that and 
that is their mission. Fine, you can keep it that way. We want 
people to be equipped to the level of the operation that they 
are working towards.
    Mr. Farenthold. All right. Thank you very much.
    Mr. Mica. Ms. Adams.
    Ms. Adams. Mr. Babbitt, I noticed as Dr. Johnson was 
talking, you were shaking your head in agreement, and that was 
nice to see. I wanted to just put that out there.
    Mr. Babbitt. He was talking nicely about me.
    [Laughter.]
    Ms. Adams. Mr. Bunce's written testimony, I do not know if 
you had a chance to review it, but he writes about the 
importance of research and development for FAA and NASA. And 
so, I want to know, what is FAA doing with NASA R&D to leverage 
NextGen?
    Mr. Babbitt. Well, we have several programs that we are a 
part of JPDO. We interface with them. Actually, there was a 
provision that we were seeking to expand. We have taken 
responsibility for commercial space with sort of our old 
launches and so forth. We are trying to capture some of the 
expertise [inaudible] where we would take some of the folks who 
have been working [inaudible] think about a lot of what NextGen 
is built on today came from [inaudible] navigation space. That 
is the ultimate force now navigation [inaudible].
    Mr. Dillingham. I just wanted to add that while we were 
doing our work in tech transfer, the JPDO, which is composed of 
the Federal agencies that are part of the long-term research 
and development for NextGen, the strongest partnership we found 
was NASA in terms of tech transfer. They have a long history of 
working together, and their research transition teams are sort 
of what we put up as kind of a model that other agencies might 
want to use in working with FAA. So, NASA is the strongest 
partner that we found.
    Ms. Adams. And, Dr. Johnson, I want to give you a chance. 
Again, kind of tell us the unique opportunities that you have 
that are derived from FAA's partnership.
    Mr. Johnson. Thank you, Congresswoman Adams. I appreciate 
that. We have worked closely with the FAA. And we very much 
appreciate it. We have worked with a lot of administrators, and 
we have had very good relationships with them.
    We work closely with the FAA in trying to ensure safety in 
our Nation's airspace. And, of course, we are very proud to 
have Administrator Babbitt as an alumnus of Embry-Riddle, and 
we know that the FAA is in safe hands because of that.
    I would like to make a comment about GAMA and general 
aviation. I hope there is not a misconception that somehow 
general aviation is not at the cutting edge of technology. We 
have a lot of relationships with general aviation companies. 
For example, we offer degree programs for Gulfstream in 
Savannah, and we work with them on the development of 
composites and advanced avionics.
    When you look at Embry-Riddle's fleet, if you look at the 
avionics in our small planes, like the Diamond 42, for example, 
you will find that that avionics package is as good, if not 
better, than most commercial airliners in our country.
    So, general aviation is at the forefront in terms of the 
development of a lot of technology that would be very 
appropriate to making NextGen a reality and make our skies 
safer. I want to compliment GAMA and their work, as well as the 
AOPA and their efforts.
    Ms. Adams. I think that he is recognizing that there is 
this unique opportunity between FAA and NASA as they gather on 
the commercial space industry. And I think that is probably 
what--and, Mr. Bunce, we want to hear further--the written 
testimony was about, was the fact that they have a unique 
opportunity.
    Mr. Bunce. Yes, ma'am. Over the last several years, that 
budget has been whacked significantly. In fact, we partnered 
with FAA a couple of years back to say, you know, put the egg 
back in NASA, because as their budget was really getting 
squeezed, aeronautics started to drop out. And there was an 
initiative a couple of years back actually to take all 
aeronautics funding, R&D funding, and just give it to all to 
the FAA. And we were partners with the FAA there to say, no, 
that is not smart to do because there are things, as the 
administrator pointed out, that NASA does extremely well that 
we want to tap into. And that is why this partnership is 
something we would actually like to see expanded.
    But we all know in the fiscal environment that we are in 
right now, we have to leverage the best, and there are a lot of 
smart people just over there near the Cape that we would love 
to be able to see in the Government and industry to tap into 
that expertise. They do data com better than anybody on the 
planet, and we need to tap into the way they do it.
    Ms. Adams. I agree that we have got a lot of very smart 
people out there. And I would like to continue the aerospace 
part of [inaudible].
    Ms. Blakely, I listened and I was a little dismayed at the 
fact that DHS does not seem to play an active role in what you 
appear to have witnessed. Based on their own mission statement, 
I believe that homeland security is their mission statement. I 
am hoping that, Administrator Babbitt, you can help us to 
figure out a way to encourage them to be more active and 
involved as we move forward because there are some concerns 
that have been raised by this panel, and I am sure concerns on 
this committee.
    Mr. Babbitt. We will certainly make those efforts. As I 
said, I think we have made some progress. You know, the fact 
that they saw the mission that they had, the organization. I 
think they had some sort of getting in place structural issues 
that probably help any of us. [Inaudible] was lacking, we would 
say. So, I am beginning to see some better communicating line 
has been developed. I think they appreciate--we have a lot of 
expertise we could help them with, and they have a lot of 
information that we could use and benefit all of us. So, we 
will keep working on it.
    Ms. Adams. And just a quick comment. Dr. Dillingham, thank 
you for your information, for saying it is more validation of 
research than duplication, because that is important that we 
know that. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. I will call on our minority counsel. Did you have 
any questions?
    Mr. Burkett. Mr. Chairman, you are very kind, but I do not 
think I have any questions. Thanks.
    Mr. Mica. What we will do, since we have Members who may 
have additional questions, in consultation with the minority, 
we will leave the record open for a period of 2 weeks for 
additional questions, which we may submit to the panelists.
    Well, I want to thank everyone for participating, for 
taking time out of your busy schedules to be with us, and for 
the cooperative effort in moving next generation air traffic 
control forward.
    Again, we thank Embry-Riddle. I want to also thank, in 
addition, Dr. Johnson and Dr. Recascino, one of the officers at 
the university, who has helped us both with the Test Beds and 
this hearing, but also with accommodating some of the meetings 
that will take place among some of the private, public, and 
academic players in bringing this important phase of next 
generation air traffic control forward.
    With that, again, I want to thank our Members for 
attending, and the staff for their assistance in making this 
fairly historic hearing possible. And on the eve hopefully of 
us passing long-term FAA reauthorization and will incorporate 
some important provisions to make certain that the United 
States stays at the forefront both as far as the systems, next 
generation, and particularly for aviation safety that is so 
important for the traveling public.
    Somebody said to me yesterday, sort of summed it up. He 
said, it looks like you all are here to take our air traffic 
control and aviation system from World War II era to the 21st 
space age, and that sort of sums up the purpose of our being 
here.
    I invite to participate at 2:00. We will have some brief 
commentary, opening of the new Test Bed facility, and then 
there will be tours made available, and some actual operational 
demonstration for all those who care to attend. So, that will 
be at 2:00. And if you aren't with where the facility is, it is 
right--if you are looking at the terminal, it is the building 
right to the left. I saw it this morning. There is a white tent 
out in front. But you all are welcome to participate in that. 
Thank you again.
    There being no further business before the Transportation 
and Infrastructure Committee, this hearing is adjourned.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]

</pre></body></html>
